NO. ________

IN THE

Supreme Court of the United States

LUIS PITT,
Petitioner,

v.
UNITED STATES OF AMERICA,

Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

APPENDIX

Robin C. Smith, Esq.
Counsel of Record
Leean Othman, Esq.
Law Office of Robin C. Smith, Esq., P.C.

802 B Street
San Rafael, California 94901
(415) 726-8000
rcs@robinsmithesq.com
Counsel for Petitioner
LANTAGNE LEGAL PRINTING
801 East Main Street Suite 100 Richmond, Virginia 23219 (804) 644-0477

APPENDIX:
Opinion of the United States Court of Appeals for the Second Circuit,
filed 4/9/21 .................................................................................................................... A1
U.S. Const. amend. V ................................................................................................... A3
Fed. R. Crim. P. 11....................................................................................................... A3

Case 20-599, Document 67, 04/09/2021, 3074438, Page1 of 2

D. Conn
18-cr-232
Dooley, J.

United States Court of Appeals
FOR THE

SECOND CIRCUIT
_________________

At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 9th day of April, two thousand twenty-one.
Present:

Dennis Jacobs,
Robert A. Katzmann,
Steven J. Menashi,
Circuit Judges.

United States of America,
Appellee,
v.

20-599

Jonathan Otero, AKA Jax, et al.,
Defendants,
Luis Pitt, AKA Macho,
Defendant-Appellant.
Appellant appeals from his conviction for aiding and abetting the brandishing of a firearm in
furtherance of a crime of violence, and he requests a limited remand to “confirm” and correct a
typographical error in Appellant’s presentence investigation report. We construe this request as
a motion. The Government moves to dismiss this appeal as barred by the waiver of appellate
rights contained in Appellant’s plea agreement, and it opposes remand. We construe the
Government’s motion as also seeking summary affirmance of Appellant’s conviction and
sentence.
Upon due consideration, it is hereby ORDERED that the Government’s motion for summary
affirmance is GRANTED and Appellant’s motion for a limited remand is DENIED. See United
States v. Adams, 448 F.3d 492, 497 (2d Cir. 2006) (appellant may argue that “there were errors in

A1

Case 20-599, Document 67, 04/09/2021, 3074438, Page2 of 2

the proceedings that led to the acceptance of his plea of guilty” notwithstanding appeal waiver)
(internal quotation marks omitted); United States v. Monsalve, 388 F.3d 71, 73 (2d Cir. 2004) (per
curiam) (Court may “construe a motion to dismiss an appeal as a motion for summary affirmance
if the appeal presents only frivolous issues”); see also Fed. R. Crim. P. 36 (“After giving any notice
it considers appropriate, the [district] court may at any time correct a clerical error in a judgment,
order, or other part of the record[.]”).
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

2

A2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
United States Constitution
Fifth Amendment
“No person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a Grand Jury, except in cases
arising in the land or naval forces, or in the Militia, when in actual service in
time of War or public danger; nor shall any person be subject for the same
offence to be twice put in jeopardy of life or limb; nor shall be compelled in
any criminal case to be a witness against himself, nor be deprived of life,
liberty, or property, without due process of law; nor shall private property be
taken for public use, without just compensation.”
Federal Rule of Criminal Procedure 11
(a) Entering a Plea.
(1) In General. A defendant may plead not guilty, guilty, or (with the court's
consent) nolo contendere.
(2) Conditional Plea. With the consent of the court and the government, a defendant
may enter a conditional plea of guilty or nolo contendere, reserving in writing the
right to have an appellate court review an adverse determination of a specified
pretrial motion. A defendant who prevails on appeal may then withdraw the plea.
(3) Nolo Contendere Plea. Before accepting a plea of nolo contendere, the court must
consider the parties’ views and the public interest in the effective administration of
justice.
(4) Failure to Enter a Plea. If a defendant refuses to enter a plea or if a defendant
organization fails to appear, the court must enter a plea of not guilty.
(b) Considering and Accepting a Guilty or Nolo Contendere Plea.
(1) Advising and Questioning the Defendant. Before the court accepts a plea of
guilty or nolo contendere, the defendant may be placed under oath, and the court
must address the defendant personally in open court. During this address, the court
must inform the defendant of, and determine that the defendant understands, the
following:
(A) the government's right, in a prosecution for perjury or false statement, to use
against the defendant any statement that the defendant gives under oath;
(B) the right to plead not guilty, or having already so pleaded, to persist in that
plea;
(C) the right to a jury trial;
(D) the right to be represented by counsel—and if necessary have the court appoint
counsel—at trial and at every other stage of the proceeding;

A3

(E) the right at trial to confront and cross-examine adverse witnesses, to be
protected from compelled self-incrimination, to testify and present evidence, and to
compel the attendance of witnesses;
(F) the defendant's waiver of these trial rights if the court accepts a plea of guilty or
nolo contendere;
(G) the nature of each charge to which the defendant is pleading;
(H) any maximum possible penalty, including imprisonment, fine, and term of
supervised release;
(I) any mandatory minimum penalty;
(J) any applicable forfeiture;
(K) the court's authority to order restitution;
(L) the court's obligation to impose a special assessment;
(M) in determining a sentence, the court's obligation to calculate the applicable
sentencing-guideline range and to consider that range, possible departures under
the Sentencing Guidelines, and other sentencing factors under 18 U.S.C. §3553(a);
(N) the terms of any plea-agreement provision waiving the right to appeal or to
collaterally attack the sentence; and
(O) that, if convicted, a defendant who is not a United States citizen may be
removed from the United States, denied citizenship, and denied admission to the
United States in the future.
(2) Ensuring That a Plea Is Voluntary. Before accepting a plea of guilty or nolo
contendere, the court must address the defendant personally in open court and
determine that the plea is voluntary and did not result from force, threats, or
promises (other than promises in a plea agreement).
(3) Determining the Factual Basis for a Plea. Before entering judgment on a guilty
plea, the court must determine that there is a factual basis for the plea.
(c) Plea Agreement Procedure.
(1) In General. An attorney for the government and the defendant's attorney, or the
defendant when proceeding pro se, may discuss and reach a plea agreement. The
court must not participate in these discussions. If the defendant pleads guilty or
nolo contendere to either a charged offense or a lesser or related offense, the plea
agreement may specify that an attorney for the government will:
(A) not bring, or will move to dismiss, other charges;
(B) recommend, or agree not to oppose the defendant's request, that a particular
sentence or sentencing range is appropriate or that a particular provision of the
Sentencing Guidelines, or policy statement, or sentencing factor does or does not
apply (such a recommendation or request does not bind the court); or
(C) agree that a specific sentence or sentencing range is the appropriate disposition
of the case, or that a particular provision of the Sentencing Guidelines, or policy
statement, or sentencing factor does or does not apply (such a recommendation or
request binds the court once the court accepts the plea agreement).
(2) Disclosing a Plea Agreement. The parties must disclose the plea agreement in
open court when the plea is offered, unless the court for good cause allows the
parties to disclose the plea agreement in camera.

A4

(3) Judicial Consideration of a Plea Agreement.
(A) To the extent the plea agreement is of the type specified in Rule
11(c)(1)(A) or (C), the court may accept the agreement, reject it, or defer a decision
until the court has reviewed the presentence report.
(B) To the extent the plea agreement is of the type specified in Rule 11(c)(1)(B), the
court must advise the defendant that the defendant has no right to withdraw the
plea if the court does not follow the recommendation or request.
(4) Accepting a Plea Agreement. If the court accepts the plea agreement, it must
inform the defendant that to the extent the plea agreement is of the type specified
in Rule 11(c)(1)(A) or (C), the agreed disposition will be included in the judgment.
(5) Rejecting a Plea Agreement. If the court rejects a plea agreement containing
provisions of the type specified in Rule 11(c)(1)(A) or (C), the court must do the
following on the record and in open court (or, for good cause, in camera):
(A) inform the parties that the court rejects the plea agreement;
(B) advise the defendant personally that the court is not required to follow the plea
agreement and give the defendant an opportunity to withdraw the plea; and
(C) advise the defendant personally that if the plea is not withdrawn, the court may
dispose of the case less favorably toward the defendant than the plea agreement
contemplated.
(d) Withdrawing a Guilty or Nolo Contendere Plea. A defendant may withdraw a
plea of guilty or nolo contendere:
(1) before the court accepts the plea, for any reason or no reason; or
(2) after the court accepts the plea, but before it imposes sentence if:
(A) the court rejects a plea agreement under 11(c)(5); or
(B) the defendant can show a fair and just reason for requesting the withdrawal.
(e) Finality of a Guilty or Nolo Contendere Plea. After the court imposes sentence,
the defendant may not withdraw a plea of guilty or nolo contendere, and the plea
may be set aside only on direct appeal or collateral attack.
(f) Admissibility or Inadmissibility of a Plea, Plea Discussions, and Related
Statements. The admissibility or inadmissibility of a plea, a plea discussion, and
any related statement is governed by Federal Rule of Evidence 410.
(g) Recording the Proceedings. The proceedings during which the defendant enters a
plea must be recorded by a court reporter or by a suitable recording device. If there
is a guilty plea or a nolo contendere plea, the record must include the inquiries and
advice to the defendant required under Rule 11(b) and (c).
(h) Harmless Error. A variance from the requirements of this rule is harmless error
if it does not affect substantial rights.

A5

